No. 21-

 

 

IN THE
Supreme Court of the United States

WILLIAM FREDERICK LAMOUREUX,

Petitioner,
v.
STATE OF MONTANA,
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of Montana

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,483 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 16, 2021.

Colin Casey i

Wilson-Epes Printing Co., Inc.
